APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fourth Circuit
(February 4, 2021) . . . . . . . . . . . . App. 1
Appendix B Opinion in the United States District
Court for the Eastern District of
Virginia Richmond Division
(April 6, 2020) . . . . . . . . . . . . . . . . App. 3
Appendix C Final Order in the United States
District Court for the Eastern District
of Virginia Richmond Division
(April 6, 2020) . . . . . . . . . . . . . . . App. 16

App. 1

APPENDIX A
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1522
[Filed: February 4, 2021]
__________________________________________
WAYNE A. JONES, Ed.D.,
)
)
Plaintiff - Appellant,
)
)
v.
)
)
VIRGINIA STATE UNIVERSITY;
)
MAKOLA M. ABDULLAH, Ph.D.,
)
)
Defendants - Appellees. )
__________________________________________)
Appeal from the United States District Court for the
Eastern District of Virginia, at Richmond. John A.
Gibney, Jr., District Judge. (3:19-cv-00467-JAG)
Submitted: January 12, 2021
Decided: February 4, 2021
Before NIEMEYER, MOTZ, and RUSHING, Circuit
Judges.
Affirmed by unpublished per curiam opinion.

App. 2
Richard F. Hawkins, III, THE HAWKINS LAW FIRM,
PC, Richmond, Virginia, for Appellant. Mark R.
Herring, Attorney General, Samuel T. Towell, Deputy
Attorney General, E. Lewis Kincer, Jr. Senior Assistant
Attorney General, Ramona L. Taylor, Associate College
Counsel/Assistant Attorney General, William Ryan
Waddell, Assistant Attorney General, Toby J. Heytens,
Solicitor General, Michelle S. Kallen, Deputy Solicitor
General, Martine E. Cicconi, Deputy Solicitor General,
Jessica Merry Samuels, Assistant Solicitor General,
Zachary R. Glubiak, John Marshall Fellow, OFFICE
OF THE ATTORNEY GENERAL OF VIRGINIA,
Richmond, Virginia, for Appellees.
Unpublished opinions are not binding precedent in this
circuit.
PER CURIAM:
Wayne A. Jones, Ed.D., a former assistant professor
at Virginia State University (“the University”), appeals
the district court’s order granting the University’s and
its President’s motion to dismiss Jones’ 42 U.S.C.
§ 1983 complaint. We have reviewed the record and
find no reversible error. Accordingly, we affirm for the
reasons stated by the district court. See Jones v. Va.
State Univ., No. 3:19-cv-00467-JAG (E.D. Va. Apr. 6,
2020). We dispense with oral argument because the
facts and legal contentions are adequately presented in
the materials before this court and argument would not
aid the decisional process.
AFFIRMED

App. 3

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
Civil Action No. 3:19-cv-467
[Filed: April 6, 2020]
__________________________________________
WAYNE A. JONES, Ed.D.,
)
Plaintiff,
)
)
v.
)
)
VIRGINIA STATE UNIVERSITY, et al.,
)
Defendants.
)
__________________________________________)
OPINION
Wayne A. Jones, Ed.D., worked for Virginia State
University (“VSU”) from 2004 to 2018. In 2012, VSU
placed Jones in a full-time tenure track position. In
2016, VSU told Jones that he was eligible to apply for
tenure. When Jones applied for tenure, however, VSU
denied his application as untimely. Jones has sued
VSU and Makola M. Abdullah, Ph.D., the President of
VSU, pursuant to 42 U.S.C. § 1983, alleging that they
violated Jones’ procedural due process rights under the
Fifth and Fourteenth Amendments by denying his
tenure application without reviewing it on the merits.
The defendants have moved to dismiss the amended

App. 4
complaint. Because sovereign immunity bars Jones’
claims against VSU and Jones fails to allege a
deprivation of a protected property interest, the Court
will grant the defendants’ motion.
I. FACTS ALLEGED IN THE COMPLAINT
In 2004, VSU hired Jones as a non-tenure-track
Assistant Professor in the Department of Political
Science and Public Administration. Jones received a
“restricted appointment” contract, which provided that,
“[n]otwithstanding any representations to the contrary,
this appointment will not be extended or renewed.”
(Am. Compl. ¶ 9.) Nevertheless, VSU renewed Jones’
contract in 2005 and 2006. In 2007, Jones transitioned
to a tenure-track Assistant Professor position in his
department.
VSU maintains a “Timetable for Promotion/Tenure
Review Process” for each academic year. (Id. ¶ 16.) A
professor must complete four years of full-time
teaching in a tenure-track position before applying for
tenure and must apply for tenure no later than the end
of his fifth year of teaching. (See Dk. No. 9-11, at 3.)1

1

When evaluating a Rule 12(b)(6) motion, courts typically focus
only on the complaint, documents attached to the complaint, and
documents explicitly incorporated into the complaint by reference.
Goines v. Valley Cmty. Servs. Bd., 822 F.3d 159, 166 (4th Cir.
2016). In appropriate cases, however, courts may also (1) take
judicial notice of public records, such as state court records, and
(2) consider documents submitted by the movant if the documents
are integral to the complaint and indisputably authentic. Id.;
Witthohn v. Fed. Ins. Co., 164 F. App’x 395, 396 (4th Cir. 2006) (per
curiam). The defendants attach numerous exhibits to their motion
to dismiss, including the VSU faculty handbook, Jones’

App. 5
Thus, the faculty handbook requires VSU to provide
Jones with a third year review focused on “the faculty
member’s progress toward achieving tenure . . . [that]
must specifically address the criteria for tenure.” (Am.
Compl. ¶ 31.) Additionally,
[the] Office of the Provost reviews the
Certification of Tenure Track/Tenure Eligibility
Status Form and releases to Academic Deans a
list of faculty eligible to apply for tenure.
Academic Deans send written notification to
each eligible faculty member and provide a copy
to the faculty member’s chair.
(Id. ¶ 16.) The Office of the Provost completes these
reviews between April 1 and May 1 of the applicable
academic year and notifies eligible faculty members.
Once notified, the applicant has until September 1 to
submit his tenure application. After an applicant
submits his application, his department “confirm[s] the
candidate’s eligibility and consult[s] with the candidate
regarding the completeness of the application.” (Id.
¶ 24.) “[T]enure[, however,] is not guaranteed as a
matter of course to faculty who have completed the
probationary period.” (Dk. No. 9-11, at 3.)

appointment paperwork, and letters denying his applications for
tenure in 2010 and 2017. Jones does not dispute the authenticity
of these documents, but he argues that they are not integral to the
complaint. Jones, however, has relied on provisions of VSU’s
tenure review process that appear in the faculty handbook to
support his allegations regarding the process due. Thus, the Court
finds the tenure review process document integral. The Court does
not consider the remaining attachments because the amended
complaint fails to state a claim in any event.

App. 6
In 2010, Jones applied for tenure because he
thought that his previous higher-education work
satisfied the years of service requirement. The
Promotion & Tenue Committee (“P&T Committee”)
denied his application as premature because Jones’
previous work did not count toward the requirement.
Also in 2010, at the request of Provost Weldon Hill,
Ph.D., Jones accepted a position as the Coordinator of
Individualized Studies in the Office of Continuing
Education and Individualized Services. Jones primarily
oversaw VSU’s Bachelor of Individualized Studies
program. Jones remained in this role from 2010 until
2012. Hill then placed Jones in a full-time tenure track
position for the 2012-2013 academic year “with ‘3 years
counted toward Promotion/Tenure.’” (Id. ¶ 13.)
Jones remained in a tenure track position from 2013
to 2016. VSU never told Jones that he was eligible to
apply for tenure during that time and never performed
a third year review with him. In Spring, 2016, Dr.
Andrew Kanu, Dean of the College of Humanities and
Social Sciences, left a message for Jones telling him to
apply for promotion and tenure after receiving the list
of faculty eligible to apply for tenure. Kanu’s message
was the first time VSU told Jones he was eligible for
tenure. Jones asserts that VSU never included him as
eligible for tenure on previous lists.
Jones then met with Gary Baker, chair of Jones’
department, about Kanu’s message. Baker told Jones
to apply for tenure. Jones submitted his application for
tenure by the September 1, 2016 deadline. After
receiving his application, Baker confirmed Jones’
eligibility for tenure. On December 2, 2016, Baker and

App. 7
the department committee recommended Jones for
tenure. On January 4, 2017, Kanu recommended Jones
for tenure. On March 7, 2017, Jones received a letter
from the Provost denying his application as untimely.
The letter indicated that Jones should have applied in
either the 2013-2014 or 2014-2015 academic years
without mentioning that VSU had not notified Jones
that he was eligible for tenure until 2016.
Jones appealed the Provost’s decision, which was
denied on May 22, 2017. On June 22, 2017, President
Abdullah affirmed that decision. Neither letter denying
his appeal discussed whether VSU had properly
notified Jones that he was eligible to apply for tenure
in previous years. In October, 2017, Jones sent
Abdullah a final appeal letter regarding VSU’s decision
to deny Jones’ tenure application. Abdullah has not
responded to this letter. Because VSU denied Jones
tenure, Jones received a terminal contract for the
2017-2018 academic year, which ended his employment
effective September 1, 2018.
Between 2009 and 2016, VSU awarded tenure to
seventy-four professors. Jones alleges that he compares
more favorably than at least ten of those professors. He
does not know of any VSU professors denied tenure
“(i) who have been recommended for tenure by both
their Department and their School[,] and [(ii)] whose
applications have been considered on the merits who
have not been granted tenure at [VSU].” (Id. ¶ 36.)
The defendants have moved to dismiss Jones’
amended complaint for lack of subject matter
jurisdiction and for failure to state a claim.

App. 8
II. DISCUSSION
A. Sovereign Immunity2
The Eleventh Amendment guarantees “that
nonconsenting States may not be sued by private
individuals in federal court.” Bd. of Trustees of Univ. of
Alabama v. Garrett, 531 U.S. 356, 363 (2001). This
immunity extends to state agents and state
instrumentalities. See Cash v. Granville Cty. Bd. of
Educ., 242 F.3d 219, 222 (4th Cir. 2001). VSU qualifies
as a state agency and enjoys the privileges of
immunity. See Va. Code Ann. § 23.1-2700 et seq.
(creating VSU through Virginia statute). Further, the
Court treats Jones’ claims against Abdullah in his
official capacity “as a suit against the entity.” Kentucky
v. Graham, 473 U.S. 159, 166 (1985). Thus, Abdullah
also enjoys the privileges of immunity as to those
claims.
A claim against a state agency in federal court may
overcome the Eleventh Amendment immunity bar in

2

A motion under Rule 12(b)(1) tests the Court’s subject matter
jurisdiction. The plaintiff bears the burden of proving proper
subject matter jurisdiction as the party asserting jurisdiction.
Adams v. Bain, 697 F.2d 1213, 1219 (4th Cir. 1982). Although the
Eleventh Amendment simply deprives federal courts of jurisdiction
over claims against states, it is commonly referred to not as a
jurisdictional rule but as a recognition of states’ sovereign
immunity in federal court. Sovereign immunity is a jurisdictional
issue. See Research Triangle Inst. v. Bd. of Governors of the Fed.
Reserve Sys., 132 F.3d 985, 987, 990 (4th Cir. 1997); see also
Wicomico Nursing Home v. Padilla, 910 F.3d 739, 746-48 (4th Cir.
2018) (affirming a district court’s order dismissing a case based on
sovereign immunity under Rule 12(b)(1)).

App. 9
three ways: (1) Congress abrogating state immunity;
(2) a plaintiff seeking only prospective or injunctive
relief against a state agent; or (3) a state expressly
consenting to suit or waiving its immunity. See Garrett,
531 U.S. at 363; Edelman v. Jordan, 415 U.S. 651, 673
(1974); Ex parte Young, 209 U.S. 123, 159-60 (1908).
The first and third exceptions do not apply here. The
Supreme Court has held that Congress did not
abrogate states’ immunity through § 1983. Will v.
Mich. Dep’t of State Police, 491 U.S. 58, 65 (1989). Nor
has Virginia consented to the suit or waived its
immunity in this action.3 Id. at 66-69. Moreover, the
second exception—the limited exception for injunctive
or prospective relief set forth in Ex parte Young, 209
U.S. 123—applies to state officers in their official
capacities, not suits against the state or state agency
themselves. See Biggs v. N.C. Dep’t of Public Safety,
No. 18-2437, 2020 WL 1140936, at *4 (4th Cir. Mar. 10,
2020) (published opinion). Thus, the Court will dismiss
this case as to VSU4 and will only consider whether
Jones seeks prospective relief against Abdullah.5

3

For example, VSU has not removed this case to federal court. See
Sansotta v. Town of Nags Head, 724 F.3d 533, 546 (4th Cir. 2013).
4

Because the Court does not reach the merits of Jones’ claims
against VSU, it will dismiss those claims without prejudice. See
Terry v. U.S. Postal Serv., 418 F. App’x 266 (2011) (per curiam)
(affirming a dismissal without prejudice based on sovereign
immunity).
5

The parties do not dispute that Jones can only seek monetary
damages against Abdullah in his individual capacity. Thus, the
defendants argue that sovereign immunity bars Jones from
receiving both declaratory and injunctive relief. Jones, however,

App. 10
The Ex parte Young doctrine provides a limited
exception to Eleventh Amendment immunity that
focuses on ensuring that state officials’ future conduct
complies with federal law. See Quern v. Jordan, 440
U.S. 332, 337 (1979); Lytle v. Griffith, 240 F.3d 404,
408–09 (4th Cir. 2001). Under this exception, a plaintiff
can sue state officers acting in their official capacities
“when ‘(1) the violation for which relief is sought is an
ongoing one, and (2) the relief sought is only
prospective.’” Wicomico Nursing Home v. Padilla, 910
F.3d 739, 746 (4th Cir. 2018) (quoting Republic of
Paraguay v. Allen, 134 F.3d 622, 627 (4th Cir. 1998)).
“It does not apply when the alleged violation of federal
law occurred entirely in the past.” DeBauche v. Trani,
191 F.3d 499, 505 (4th Cir. 1999). Although “[m]oney
damages are probably the purest and most recognizable
form of retrospective relief, [they are] surely not the
only form, and the fact that [money damages are] not
sought whereas an injunctive or declarative [remedy]
is, does not automatically establish that the Ex parte
Young exception allows the action to proceed.” Allen,
134 F.3d at 628.
Here, Jones seeks prospective injunctive relief.
Specifically, he asks that “Dr. Abdullah, acting for
VSU, overrule the tenure eligibility decision as to Dr.
has sued VSU “solely to obtain injunctive relief.” (Am. Compl. ¶ 6.)
The Court, therefore, understands Jones to sue Abdullah in his
official capacity only for “prospective injunctive relief,” not for
declaratory relief. (Id. at 11.) Accordingly, the Court focuses on
whether his request for an injunction, not his request for
declaratory relief, meets the Ex parte Young exception. Regardless,
for the reasons set forth below, Jones fails to state a claim for relief
as to Abdullah in either his individual or official capacity.

App. 11
Jones and . . . , instead, require his application to be
substantively reviewed by the P&T Committee.” (Am.
Compl. at 11.) Jones essentially seeks reinstatement
because he further contends that he will return to VSU
as a tenured professor once the P&T committee
substantively reviews his application.
“[C]laims for reinstatement to previous employment
meet the Ex Parte Young exception.” Biggs, 2020 WL
1140936, at *5. Jones has also alleged that Abdullah
has not responded to his final appeal letter, suggesting
that the appeals process is not yet complete. Moreover,
“Abdullah has . . . the power and authority to order
that . . . Jones’ application for tenure . . . be considered
on the merits by the [P&T] Committee.” (Am. Compl.
¶ 6); see Allen v. Coll. of William & Mary, 245 F. Supp.
2d 777, 791 (E.D. Va. 2003) (“[The] [p]laintiff is entitled
pursue a § 1983 claim against [the defendant] in her
official capacity for injunctive relief in the form of
reinstatement provided that [the defendant] has the
authority to provide for such relief.”). Thus, sovereign
immunity does not bar Jones’ claims against Abdullah
in his official capacity.

App. 12
B. Due Process6
When considering a due process claim under § 1983,
the Court must first decide whether the defendants
deprived the plaintiff of a liberty or property interest
protected by the Fourteenth Amendment “because the
requirements of procedural due process only apply
when such protected interests are implicated.”7 Davis
v. Rao, 982 F. Supp. 2d 683, 688 (E.D. Va. 2013), aff’d,
583 F. App’x 113 (4th Cir. 2014) (per curiam). “To have
a property interest in a benefit, a person clearly must
have more than an abstract need or desire for it. He
must have more than a unilateral expectation of it. He

6

A Rule 12(b)(6) motion gauges the sufficiency of a complaint
without resolving any factual discrepancies or testing the merits
of the claims. Republican Party of N.C. v. Martin, 980 F.2d 943,
952 (4th Cir. 1992). In considering the motion, a court must accept
all allegations in the complaint as true and must draw all
reasonable inferences in favor of the plaintiff. Nemet Chevrolet,
Ltd. v. Consumeraffairs.com, Inc., 591 F.3d 250, 253 (4th Cir.
2009) (citing Edwards v. City of Goldsboro, 178 F.3d 231, 244 (4th
Cir. 1999)). The principle that a court must accept all allegations
as true, however, does not apply to legal conclusions. Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009). To survive a Rule 12(b)(6) motion
to dismiss, a complaint must state facts that, when accepted as
true, state a claim to relief that is plausible on its face. Id. “A claim
has facial plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id. (citing Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 556 (2007)).
7

Jones’ claims fail to the extent he alleges due process violations
under the Fifth Amendment. The Fifth Amendment Due Process
Clause only applies to federal actors. See Winfield v. Bass, 106
F.3d 525, 530 n.2 (4th Cir. 1997). Jones has brought claims against
state actors, not federal actors.

App. 13
must, instead, have a legitimate claim of entitlement to
it.” Bd. of Regents of State Colls. v. Roth, 408 U.S. 564,
577 (1972). Here, Jones argues that he had protected
property interests in (1) a fair tenure review process,
and (2) a common-law interest in tenure itself.
Jones does not have a protected property interest in
the tenure review process. Although a tenured
employee has a protected property interest in his
continued employment,8 “[t]enure review procedures,
without more, do not give rise to a protected property
interest.” Davis, 583 F. App’x at 114; cf. Siu v. Johnson,
748 F.3d 238, 244 n.11 (4th Cir. 1984). Because those
procedures do not constitute a protected property
interest, VSU’s alleged failure to follow its tenure
review process does not give rise to a cognizable due
process claim. See Davis, 583 F. App’x at 114.
Similarly, Jones does not have a protected property
interest in tenure itself. Generally, an untenured
professor has no protected property interest in
continued employment. See Amr v. Va. State Univ., No.
3:07cv628, 2009 WL 112829, at *8 n.15 (E.D. Va. Jan.
14, 2009), aff’d, 331 F. App’x 194 (4th Cir. 2009) (per
curiam). Even absent tenure or a written contract,
however, “[a] teacher . . . who has held his position for
a number of years, might be able to show from the
circumstances of this service—and from other relevant
facts—that he has a legitimate claim of entitlement to

8

See id. at 576. Similarly, college professors and staff members
who have a contract with a public university have a protected
property interest in their employment during the terms of their
contracts. See id. at 576-77.

App. 14
job tenure.” Perry v. Sindermann, 408 U.S. 593, 602
(1972). “[T]here may be an unwritten ‘common law’ in
a particular university that certain employees shall
have the equivalent of tenure.” Id.; cf. Siu, 748 F.2d at
243-44. For example, in Perry, the Supreme Court held
that an “unusual provision” that guaranteed tenure “as
long as his teaching services are satisfactory and . . . he
displays a cooperative attitude toward his co-workers
and his superiors,” coupled with a state law that
guaranteed “some form of job tenure” after seven years
of teaching, could “justify [a] legitimate claim of
entitlement to continued employment.” 408 U.S. at
599-603.
Jones does not plead facts showing that a common
law right to tenure exists. He alleges that, out of
seventy-four professors awarded tenure between 2009
and 2016, he compares more favorably than ten of
them. He also asserts that every applicant received
tenure when he or she earned a recommendation from
his or her department and school and when the P&T
Committee considered the application on the merits.
Although these previous tenure decisions may have
created a “subjective ‘expectancy’ [not] protected by
procedural due process,” Jones has not “alleged the
existence of rules and understandings, promulgated[,]
and fostered by state officials” that would give rise to a
protected right to tenure. Id. at 602. Indeed, the faculty
handbook provides that “tenure is not guaranteed as a
matter of course to faculty who have completed the
probationary period.” (Dk. No. 9-11, at 3.) Thus, Jones
has not sufficiently alleged that VSU deprived him of
a property interest in violation of his due process
rights.

App. 15
III. CONCLUSION
Because sovereign immunity bars Jones’ claim
against VSU and Jones does not allege a deprivation of
a protected property interest, the Court will dismiss
this case.
The Court will issue an appropriate Order.
Let the Clerk send a copy of this Opinion to all
counsel of record.
Date: 6 April 2020
Richmond, VA
/s/
John A. Gibney, Jr.
United States District Judge

App. 16

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
Civil Action No. 3:19-cv-467
[Filed: April 6, 2020]
__________________________________________
WAYNE A. JONES Ed.D.,
)
Plaintiff,
)
)
v.
)
)
VIRGINIA STATE UNIVERSITY, et al.,
)
Defendants.
)
__________________________________________)
FINAL ORDER
This matter comes before the Court on the
defendants’ motion to dismiss. (Dk. No. 6.) For the
reasons stated in the accompanying Opinion, the Court
GRANTS the motion. The Court DISMISSES Jones’
claims against Virginia State University WITHOUT
PREJUDICE. Further, the Court DISMISSES Jones’
claims against Abdullah in his individual and official
capacities WITH PREJUDICE. The Court DIRECTS
the Clerk to close the case.
It is so ORDERED.

App. 17
Let the Clerk send a copy of this Order to all
counsel of record.
Date: 6 April 2020
Richmond, VA
/s/
John A. Gibney, Jr.
United States District Judge

